              CLOSEOUT MEMORANDUM FOR A-01060020
                             '
We learned that University 1 received an email message from the complainant,2 a former
post-doctoral researcher at University 2: that alleged the subject: presently a faculty
member at University 1, committed plagiarism as a graduate student working with the
complainant at University 2 when he took the complainant's text and ideas. The
complainant said that the subject was supported by an NSF awardS while he was at
University 2. Because University I informed us that it would perform a preliminary
review of this allegation, we deferred our inquiry to University 1.

After reviewing the information it received, University 1 informed us it could proceed
with an inquiry only if NSF could provide it with some evidence that it could use to
evaluate the allegation since the complainant neither provided any supporting evidence it
could use nor submitted a formal signed complaint, required under its policy.

The complainant has submitted several allegations to our office, which resulted in the
initiation of four cases6 at four universities. In this case, as in the other three, the
complainant failed to provide any evidence to support the allegation. Because he failed
to provide us with substantive documentation in support of this allegation of plagiarism,
we notified University 1 that we are closing this case.

This inquiry is closed and no further action will be taken.


cc: Investigations, IG




                                        Page 1 of 1                             A 01-20
